<html>
<title> - EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S EFFORTS TO RECRUIT, HIRE, AND PROMOTE VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  EXAMINING THE DEPARTMENT OF HOMELAND SECURITY'S EFFORTS TO RECRUIT, 
                       HIRE, AND PROMOTE VETERANS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2007

                               __________

                           Serial No. 110-85

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-980                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
BENNIE G. THOMPSON, Mississippi (Ex  PETER T. KING, New York (Ex 
Officio)                             Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     3

                               Witnesses

Ms. Leslye A. Arsht, Deputy Under Secretary of Defense for 
  Military Community & Family Policy, Department of Defense:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Eric A. Hilleman, Deputy Director, Legislative Affairs, 
  Veterans of Foreign Wars of the United States:
  Oral statement.................................................    11
  Prepared Statement.............................................    12
Ms. Marta Brito Perez, Chief Human Capital Officer, Department of 
  Homeland security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Appendix

Additional Questions and Responses:
  Responses from Ms. Leslye A. Arsht.............................    27
  Responses from Ms. Marta Brito Perez...........................    28


                      EXAMINING THE DEPARTMENT OF

   HOMELAND SECURITY'S EFFORTS TO RECRUIT, HIRE, AND PROMOTE VETERANS

                              ----------                              


                       Tuesday, November 13, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                Subcommittee on Management,
                             Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [chairman of the subcommittee] presiding.
    Present: Representatives Carney and Rogers.
    Mr. Carney. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
``Examining the Department of Homeland Security's Efforts to 
Recruit, Hire, and Promote Veterans.''
    Thanks for joining us today. Due to some unforeseen events 
that came up on the calendar of the full committee over the 
last few weeks, we have had to push this hearing back a couple 
of times. So I appreciate your indulgence.
    I am glad we are finally holding this meeting, especially 
after just having observed Veterans Day. And it has been a full 
weekend for me, certainly, of Veterans Day events. I would like 
to thank my friend, Mr. Rogers, for his cooperation in holding 
today's hearing, as well.
    As this session winds down, there has certainly been no 
shortage of partisanship on the House floor. I am glad that our 
subcommittee, however, and that the committee have been able to 
get past all that and continue to examine issues affecting the 
Department of Homeland Security.
    Thanks, also, to all of our witnesses for submitting their 
testimony on time, especially Ms. Perez. I appreciate that very 
much. I hope this is a sign of things to come.
    In fact, while our committee has held countless meetings on 
DHS shortcomings, hiring of veterans at DHS is an area where 
the Department seems to be on the right track. As I mentioned a 
few moments ago, this past Sunday we honored those who have 
served our Nation. Over the years, Congress has seen fit to 
ensure that there are laws in place to give vets an advantage 
when it comes to both applying for and being hired for Federal 
jobs.
    In general I am pleased to see that DHS has been proactive 
in recruiting vets. Just last week, the Department convened the 
first meeting of its Veterans Advisory Council, comprised of 
key veterans service organizations. And while the American 
Legion has expressed concerns over DHS's efforts in general and 
the Legion did not participate in last week's meetings, 
feedback from our groups has been positive. These groups have 
long assisted vets in finding their way back into Federal 
service.
    Aside from the Department of Defense, the Department of 
Veterans Affairs and the Air Force, Army and Navy, the 
Departments of Transportation and Homeland Security are atop 
the list of the Federal agencies with a percentage of their 
workforce being prize comprised of vets. As of last week, DHS 
had almost 40,500 veterans on the payroll. That is to be 
commended. This year alone, the Department has hired over 6,000 
vets, twice as many as it hired in 2006 and four times as many 
as it hired in 2005. This is obviously good news, both for DHS 
and for veterans.
    That said, I worry about massive retirements that our 
Federal workforce will endure over the next decade. Over 60 
percent of the Federal employees will be eligible to retire 
over the next 10 years. The Department must do everything it 
can to stay competitive with other Federal agencies when 
recruiting, retaining and promoting veterans. Their 
unquestionable service ethic makes them ideal Federal 
employees. It is of the utmost importance that DHS leverage 
their experience, dedication and training to strengthen the 
Department.
    While vets traditionally have strong ties with the VA, DOD 
or other various agencies, DHS is in a unique position to 
utilize skills that these former soldiers, seamen, airmen and 
Marines honed while on active duty. To borrow from an old 
recruiting phrase from the Army, is the Department being all it 
can be when it comes to matching skills of veterans to new 
careers at DHS? TSA sees attrition rates of roughly 15 percent. 
Surely there are veterans with comparable skills who can come 
back with little or no additional training, fill the vacancies 
and stick around long enough to right some of the wrongs that 
are driving screeners away.
    Also, is the Department working to utilize the unique 
intelligence analysis and translation skills of vets to augment 
the existing intelligence functions? There are any number of 
areas where the skills of veterans could easily pair up with 
DHS job requirements. I think we all just want to ensure that 
the Department isn't overlooking any of these qualified, 
already-trained vets and instead hiring more costly private 
contractors to fill positions.
    This means that in addition to DHS recruiters continuing to 
work at military hospitals and the Department working with the 
various VSOs throughout the Veterans Advisory Council, that DHS 
also expand recruiting to transition centers where veterans are 
first put in touch with civil service opportunities. Even 
though these vets are often in a hurry to get through the 
transition centers' doors--we certainly understand that--any 
contact with DHS is better than nothing.
    I look forward to hearing what has been working and what 
hasn't worked and what is planned for the future to ensure 
DHS's success in recruitment and retention of these uniquely 
qualified and dedicated Americans.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Chairman Carney, for holding this 
hearing and the witnesses for participating in our effort to 
review the progress that the Department of Homeland Security is 
making to recruit, hire and retain veterans. It is timely, 
since our Nation just honored Veterans Day, that we honor the 
bravery and sacrifice of those men and women who served in 
uniform.
    I would like to also welcome back to the subcommittee Ms. 
Marta Perez, Director of Human Resources for DHS. I know that 
is not your new title yet, but we are still hoping the Senate 
takes up the legislation Chairman Carney and I worked on for 
your new title.
    The employment of veterans by the Federal Government, 
especially DHS, is a critically important issue. Veterans 
employed at DHS bring a wealth of experience from the 
specialized training they receive in the military. As a member 
of the House Armed Services Committee, I am especially aware of 
the sacrifices our brave men and women in uniform make every 
day in keeping our country safe. During that committee's site 
visits to Iraq, we saw firsthand the major challenges our 
troops are facing. We also saw how well-trained they are and 
what special skills they can bring to their future employers.
    My home State of Alabama has over 412,000 veterans. Out of 
all the civilian DHS employees living in Alabama, 263, or 28 
percent, are veterans. According to the Office of Personnel 
Management, in fiscal year 2006 DHS ranked seventh in the 
percentage of veterans in a Federal agency's workforce. And 
according to DHS, veterans constitute 24 percent of its 
workforce. This percentage compares to the government-wide 
average of employed veterans, which DHS states to be 26.3 
percent. These numbers appear to indicate that folks at DHS are 
doing a good job in hiring veterans to support the Department's 
mission.
    In addition to hiring veterans, it is also important to 
have programs in place to retain them. In the last Congress and 
earlier this year, this subcommittee held hearings on personnel 
challenges facing the Department of Homeland Security, 
including the retention of its valued employees. Last month, an 
OPM official testified before the a Veterans Affairs 
subcommittee that DHS has one of the highest retention rates of 
veterans throughout the Federal Government. We look forward to 
hearing more about DHS' efforts in these areas as well as more 
that might be done to recruit those soldiers returning from the 
wars in Iraq and Afghanistan.
    And, with that, I yield back.
    Mr. Carney. Thank you, Mr. Rogers.
    Should other members show up, their statements will be 
submitted for the record.
    I want to welcome the witnesses.
    Our first witness has appeared before the subcommittee 
several times before. Marta Brito Perez is the Chief Human 
Capital Officer at the Department of Homeland Security. Ms. 
Perez came to the Department late last year from the Office of 
Personnel Management, where she led the Human Capital 
Leadership and Merit System Accountability Division. Prior to 
her Federal service, Ms. Perez was the director of the Office 
of Human Resources of the Montgomery County, Maryland, 
government, where she oversaw all aspects of human resource 
management for more than 10,000 employees and 4,000 retired 
employees and their dependents.
    Our second witness is Ms. Leslye Arsht, Deputy Under 
Secretary of Defense for Military Community and Family Policy 
at the U.S. Department of Defense, a position she has held 
since February 2006. She is responsible for policy advocacy and 
oversight for all community support to service members and 
their families, including, but not limited to, the Transition 
Assistance Program for separated service members. Prior to her 
current appointment, Ms. Arsht was part of the Under Secretary 
of Defense for Personnel and Readiness team since June 2004.
    Our third and final witness is Mr. Eric Hilleman, deputy 
director of the Veterans of Foreign Wars of the United States' 
National Legislative Service, a position he has held since 
March of 2007. Mr. Hilleman is a veteran himself, having served 
in the United States Marine Corps in several assignments 
overseas. Mr. Hilleman was honorably discharged in 1999 at the 
rank of sergeant. After his service, he attended Utah State 
University, where he was chosen as the Borg Scholar and studied 
Arabic at the American University in Cairo from 2002 to 2003. 
He graduated in 2004 from USU with a bachelor's of arts in 
political science with a focus in the Middle East.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Chief Perez.

 STATEMENT OF MARTA BRITO PEREZ, CHIEF HUMAN CAPITAL OFFICER, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Perez. Good afternoon. Thank you, Chairman Carney and 
Ranking Member Rogers, for inviting me this afternoon. It is an 
honor to appear today to update you on the Department of 
Homeland Security's accomplishments and new initiatives to 
recruit, hire and promote our veterans.
    Today's competitive job market presents increasing 
opportunities for the men and women--talented men and women--
for rewarding careers outside of the Federal Government. This, 
coupled with our aggressive hiring goals, presents a challenge. 
I believe that our veterans are a key source for the challenge 
that we need at homeland security. We value the experience, the 
commitment and the work ethics that veterans bring to the job, 
as well as their skills and abilities. Their military 
backgrounds and training are well-suited for our jobs. We 
currently employ over 40,000, as you mentioned, 24 percent 
veterans across our organizations. We also have 41,000 active-
duty and 8,000 reserve U.S. Coast Guardsmen and--women.
    Over the last year, we have made progress in reaching out 
to veterans. Although we are pleased with the results, we are 
committed to doing more. This past year, the Department's human 
resources directors joined me in drafting a 2-year operational 
plan, which included veterans outreach as a priority for us. We 
have had successes in recruiting veterans. Over 23 percent of 
our headquarter employees are veterans. Over 4,000, or 27 
percent, of our border patrol agents are veterans. Over 5,400, 
or 29 percent, of our Customs and Border Protection officers 
are veterans as well. Our criminal investigators, deportation 
officers and detention center officers, almost 35 percent of 
them are veterans. And in TSOs, transportation security 
officers, over 22 percent are veterans.
    I would like to update you on our progress in veterans 
outreach and share with you some of our unique initiatives.
    Recently we launched a one-stop Web site for veterans 
seeking employment with DHS. The Web site contains job 
listings, application information or requirements, an e-mail 
box for inquiries and for them to submit documents, and a 
converter to help veterans identify what civilian occupations 
correlate to their military occupation.
    Last week we also hosted the first meeting of the 
Department's Veterans Outreach Advisory Council. The council is 
composed of military representatives and representatives from 
veterans support organizations such as the American Legion, 
Veterans of Foreign Wars and Vietnam Veterans of America. The 
council will advise us on the effectiveness of our veterans 
outreach efforts on an ongoing basis. And we believe this is 
the first council of its kind in the Federal Government.
    We continue to conduct specific, targeted outreach efforts. 
Over the past year, we participated in approximately 130 
outreach and recruitment events, many targeting disabled 
veterans.
    While outreach is a vital element of our strategy, we are 
also trying to improve our internal processes so we can 
expedite our process. We are conducting enhanced training for 
human resources specialists in the areas of veterans' 
employment, authorities and rights. Our objective is to 
increase our ability to recruit and hire veterans. I am pleased 
to report that we are seeing progress. Over a 1-year period 
ending this past June, we used special veterans employment 
authorities to hire almost 600 veterans. These are very 
important authorities for us.
    I am sure you are all familiar with the wonderful program 
sponsored by the Department of Defense, the Operation 
Warfighter Program. Our Department was one of the first Federal 
agencies invited to participate in the pilot program launch in 
2005. And since that time, we have placed almost 40 
participants, many of them on a permanent basis.
    As we look back over the past few years, we see that we are 
making significant progress. The number of veterans hired in 
2006, as you mentioned, doubled the number we hired in 2005, 
and we double the number in 2007 again.
    With regard to disabled veterans, between 2006 and 2007 we 
increased the number of disabled veterans we hired from 366 to 
771, and we now employ approximately 6,400 disabled veterans.
    While we take pride in our hiring of veterans and disabled 
veterans, we continue to see separations, and, like you, we 
watch retirements and all separations. Equally important to 
hiring more veterans is ensuring that we have programs in place 
that will continue to develop their talents and abilities. Last 
year we implemented a brand-new comprehensive learning and 
development strategy to better address the needs of our 
employees, including our growing veteran population. The 
Department recognizes the importance of fully utilizing the 
talent, the skills and work ethics of our veterans. We value 
the experience and character of those who have already served 
their country and wish to continue to do so at DHS.
    I thank you for your leadership and your support of our 
efforts to increase our veterans and our workforce, and I will 
be happy to answer any questions.
    [The statement of Ms. Perez follows:]

                Prepared Statement of Marta Brito Perez

    Thank you, Chairman Carney, Ranking Members Rogers and Members of 
the Subcommittee. It is an honor to appear before you to update you on 
the Department of Homeland Security's (DHS) accomplishments and new 
initiatives to recruit and hire more of America's veterans.
    Over the last year, and even since the last time we met, we have 
made great progress in reaching out to veterans and in recruiting and 
hiring disabled veterans. We are pleased with the positive results we 
have seen from our efforts and we are committed to doing even more in 
this area.
    Prior to joining DHS, I worked at the Office of Personnel 
Management where I had oversight of many veterans' initiatives. Since 
arriving at DHS in September 2006, I have used that experience and have 
worked to ensure we fully utilize as many programs as possible to 
improve our veterans' outreach efforts.

Veterans Have the Talent DHS Needs
    At DHS, we value the experience, commitment and work ethic that 
veterans bring to the job, as well as their significant skills and 
abilities. Their military backgrounds and training are well suited for 
DHS jobs--and most importantly--to accomplishing our critical mission. 
We are proud to provide opportunities to those who wish to serve their 
country a second time.
    The training, experience, resourcefulness and work ethic veterans 
bring to the job enable them to take on challenges beyond the task at 
hand. This unique combination makes them particularly well-suited for a 
number of Mission Critical Occupations across DHS. The chart below 
provides an illustration of the number of veterans in some of our 
Mission Critical Occupations.

                              Veterans Serving in DHS Mission Critical Occupations
----------------------------------------------------------------------------------------------------------------
                          Component                             # of Employees   # of Veterans      % Veterans
----------------------------------------------------------------------------------------------------------------
U.S. Customs and Border Protection...........................
----------------------------------------------------------------------------------------------------------------
Border Patrol Agents                                                     14847             4044              27%
----------------------------------------------------------------------------------------------------------------
CBP Officers                                                             18495             5429              29%
����������������������������������������������������������������������������������������������������������������
U.S. Immigrations and Customs
Enforcement
����������������������������������������������������������������������������������������������������������������
Criminal Investigators; Deportation                                       5351             1872              35%
Officers; Detention/Deportation Officers
����������������������������������������������������������������������������������������������������������������
Federal Law Enforcement Training
Center
����������������������������������������������������������������������������������������������������������������
Investigator Instructor                                                    564              277              49%
----------------------------------------------------------------------------------------------------------------


    DHS Veterans Outreach Initiatives
    At DHS, we are working on numerous fronts to reach out to veterans. 
I would like to update you on our progress and share with you some 
results from this past year.
    On October 9, 2007, my office, working in collaboration with our 
Office of Public Affairs and Office for Civil Rights and Civil 
Liberties (CRCL), launched a ``one stop'' website for veterans seeking 
employment with DHS. This website contains current DHS job listings, 
application information and requirements, an e-mail box for inquiries 
and submitting documents and a ``converter'' to help veterans identify 
which civilian occupations correlate to their military occupation 
specialties.
    On November 6, 2007, we hosted the first DHS Veterans Outreach 
Advisory Council. Composed of military representatives and 
representative from veterans support organizations, such as the 
American Legion, Veterans of Foreign Wars and Vietnam Veterans of 
America, the Council will advise us on the effectiveness of our 
veterans outreach efforts on an ongoing basis. We believe this is the 
first Council of its kind in the federal government.
    In addition to these unique initiatives, we continue to conduct 
specific, targeted outreach efforts.
    In the past fiscal year, collectively we have participated in 
approximately 130 outreach and recruitment events, many targeting 
disabled veterans. Examples include:
        <bullet> DHS was represented at Congresswoman Hilda L. Solis' 
        4th Annual Veterans Care Day held in East Los Angeles on 
        October 6, 2007. I personally sent our Department Recruitment 
        Program Manager to the event.
        <bullet> DHS Headquarters sponsored a second annual open house 
        event called ``Connecting with Your Future'' on October 24, 
        2007. The purpose of this event was to provide Veterans, 
        Veterans with Disabilities and Students with Disabilities with 
        an opportunity to meet managers and supervisors from 
        organizations within DHS, and to obtain information about 
        career opportunities.
        <bullet> Representatives from DHS components attended the New 
        York Times' ``Annual Salute Our Heroes: Veterans Job Fair & 
        Career Expo'' held November 6, 2007 in New York City. This is 
        sponsored in part by the Department of Labor's (DOL) Veterans' 
        Employment and Training Service (VETS).
        <bullet> We also had representation at the League of Latin 
        American Citizens (LULAC) Veterans Conference in Orlando, 
        Florida, over the Veterans Day weekend.
    Finally, we are conducting enhanced training for the Department's 
HR specialists in the areas of veterans' employment programs, 
authorities and rights. We will establish a network of specialists in 
this arena dedicated to helping veterans join the DHS team.
    Our objective in all of our efforts is to increase our ability to 
recruit veterans, and I am pleased to report that we are seeing 
progress. Over a one-year period ending this past June, we used the 
following veterans' employment authorities to hire 591 veterans:
        <bullet> Veterans Employment Opportunities Act of 1998 (VEOA): 
        408
        <bullet> Veterans Reemployment Appointment (VRA): 144
        <bullet> 30% or more Disabled: 39

Operation Warfighter Program
    DHS, under the leadership of CRCL, is very proud to have been among 
the first federal agencies invited to participate in the April 12, 2005 
meeting on the pilot program that launched the Department of Defense's 
Operation Warfighter (OWF) program. The first OWF participants were 
placed within CRCL. OWF is a temporary assignment program placing 
severely wounded service members undergoing rehabilitative services at 
Walter Reed Army Hospital or the National Naval Medical Center on 
detail assignments with federal agencies in the greater Washington, 
D.C. area. This program provides active duty wounded service members 
with an opportunity to explore their skills, start networking, 
experience a meaningful activity outside of the hospital environment 
and begin a formal transition back into the workforce. OWF is a 
collaborative effort between DoD and DOL/VETS.
    In December 2005, DHS expanded its participation to include 
permanent placements of OWF participants seeking to continue their 
public service in civilian careers. Since inception, DHS has placed 36 
OWF participants in components, of which 19 were placed during fiscal 
year 2007, hiring five permanently. DHS also assists wounded service 
members in their search for employment with locations in or near DHS 
field offices if they decide not to remain in the DC area upon release 
from Walter Reed Army Hospital or the National Naval Medical Center.
    DHS components continually work with Operation WarFighter personnel 
and other organizations to match veterans to careers in the Department. 
CRCL provided the OWF Project Manager with a complete listing of major 
components and sub agencies that is used to attract wounded service 
members to DHS from Walter Reed Army Hospital and the National Naval 
Medical Center.
    DHS officials actively participate in OWF bi-weekly Briefings, 
Transition Assistance Program sessions and career fairs at Walter Reed 
Army Hospital and the National Naval Medical Center. On June 20, 2007, 
Secretary Chertoff hosted a barbecue for Operation Warfighter 
participants and their families at the Nebraska Avenue Complex. And as 
indicated earlier, on October 24, 2007, DHS Headquarters Office of 
Equal Employment Opportunity hosted their second ``Connecting with the 
Future'' event to provide veterans and veterans with disabilities with 
the opportunity to meet DHS managers and to obtain information about 
career opportunities. All DHS components were invited to participate.

Results
        <bullet> We employ over 40,000 veterans at DHS.
        <bullet> The number of veterans hired in fiscal year 2006 
        (3,015) was double the fiscal year 2005 number (1,497), and in 
        fiscal year 2007 we increased the number of veterans hired 
        (6,013) by an additional 100%.
                <bullet> U.S. Customs and Border Protection hired 
                almost three times as many veterans in fiscal year 2007 
                than fiscal year 2006.
                <bullet> U.S. Immigration and Customs Enforcement hired 
                almost three times as many veterans in fiscal year 2007 
                than fiscal year 2006
                <bullet> The Federal Emergency Management 
                Administration hired more than twice the number of 
                veterans in fiscal year 2007 than fiscal year 2006.
                <bullet> We also significantly increased the number of 
                disabled veterans hired in fiscal year 2007.

Conclusion
    The Department recognizes the importance of fully utilizing the 
talents, skills and work ethic of our veterans in meeting the DHS 
mission of securing the American homeland. I hope you can appreciate 
how much we value the experience and character of those who have 
already served their country and wish to continue to do so with DHS.
    My office plays an important role in ensuring and supporting DHS' 
capacity to build and sustain a high-performing workforce and provide 
programs to give employees at all levels the knowledge and tools they 
need to drive mission success.
    Thank you for your leadership and your continued support of the 
Department of Homeland Security and the programs that support our 
employees. I would be happy to answer any questions you may have.

    Mr. Carney. Thank you, Ms. Perez.
    Ms. Arsht for 5 minutes, please.

STATEMENT OF LESLYE A. ARSHT, DEPUTY UNDER SECRETARY OF DEFENSE 
FOR MILITARY COMMUNITY AND FAMILY POLICY, DEPARTMENT OF DEFENSE

    Ms. Arsht. Thank you, Mr. Chairman, Mr. Rogers, for the 
opportunity to appear before you to reiterate the Department of 
Defense's commitment to providing assistance and support that 
is needed to meet the challenges confronting our severely 
injured and wounded service members and their families.
    In addition to the Department's efforts, each individual 
military service has its own programs to assist wounded 
warriors. We share this mission to support quality of life for 
our families and service members.
    The specific reason for my being here today is to highlight 
just one of our programs, Operation Warfighter. The Department 
has sponsored our Operation Warfighter for 2 years as a 
temporary assignment program for service members who are 
convalescing at military treatment facilities in the national 
capital area.
    This program is designed to provide recuperating service 
members with meaningful activity outside of the hospital 
environment that assists in their wellness and offers a formal 
means of transition back to the military or to civilian 
workforce. The program's goal is to match service members with 
opportunities that consider their interests and utilize both 
their military and nonmilitary skills, thereby creating 
productive assignments that are beneficial for the recuperation 
of the service member and their outlook on the future.
    Since 2006, we have placed 315 service members within 80 
participating Federal agencies and subcomponents. There is no 
shortage of employment opportunity, and many of the new agency 
partners result from specific requests by service members for a 
particular kind of work. The average length of an assignment is 
3 to 5 months for 15 to 25 hours a week.
    To meet new service members for the program, the Department 
holds regular information sessions twice a month at Walter Reed 
Medical Center. Federal employers in the program are invited to 
attend these sessions to speak about their job and career 
opportunities. Service members must be medically cleared to 
participate in Operation Warfighter, and work schedules need to 
be flexible and considerate of the candidates' medical 
appointments.
    Through this program, service members are able to build 
their resumes, explore employment interests, develop job skills 
and gain valuable Federal Government work experience to help 
prepare them for the future. The Federal agencies and 
subcomponents acting as employers in the program have benefited 
from the considerable talent and dedication of these 
recuperating service members. Approximately 40 permanent job 
placements have resulted from Operation Warfighter assignments 
once the service member has separated from military service.
    The Department of Homeland Security has been one of the 
most active participating agencies in the Operation Warfighter 
program. Within the Department of Homeland Security alone, we 
have placed 40 service members, 12 of whom were permanently 
placed.
    One recent successful placement was that of Specialist 
Robert Kaminski, who began working with the Federal Air Marshal 
Service last April while he was convalescing at Walter Reed. 
Specialist Kaminski was assigned to flight operations during 
his recuperation from a loss of a leg from an improvised 
explosive device. His colleagues remarked, ``Bob was given 
relevant, meaningful work from day one, and he was a valued 
asset. His qualities of dedication, good humor and courage were 
an inspiration to the entire division and served as a reminder 
of the importance of our ongoing mission.'' When he became 
eligible for the community-based health-care organization 
program to receive his outpatient care close to home in western 
Pennsylvania, the Federal Air Marshal Service retained him in 
their Pittsburgh field office. He recently wrote to us, ``If 
you want to tell them about my story, I think it is a great 
opportunity for wounded warriors coming back.''
    Another success story is that of Sergeant Elmer Armstrong, 
who worked on Operation Warfighter assignment with the Secret 
Service for almost a year. When he transitioned out of the 
military this past September, the Secret Service hired him.
    Operation Warfighter is not just about employment. For many 
recovering service members, the program represents the first 
opportunity to return to work outside of the hospital 
environment. It is a time for easing transitions, for 
rediscovery during reintegration, for increasing self-worth. 
Placing service members in supportive work settings that 
positively impact the recuperation process is the underlying 
purpose of the program. We view this program as being immensely 
important to rebuilding lives one life at a time, and we 
appreciate your interest in the program.
    Thank you.
    [The statement of Ms. Arsht follows:]

                 Prepared Statement of Leslye A. Arsht

    Thank you, Mr. Chairman, and members of the Management, 
Investigations, and Oversight Subcommittee, for the opportunity to 
appear before you today to reiterate the Department of Defense's 
commitment to providing the assistance and support that is needed to 
meet the challenges confronting our severely injured and wounded 
Service members and their families. In addition to the Department's 
efforts, each individual Service has its own programs to assist wounded 
warriors. We share the mission to improve the quality of life of our 
wounded Service members and their families.
    The specific reason for my being here today is to highlight just 
one of our programs--Operation Warfighter. The Department has sponsored 
Operation Warfighter for two years as a temporary assignment program 
for Service members who are convalescing at Military Treatment 
Facilities in the National Capital Region. This program is designed to 
provide recuperating Service members with meaningful activity outside 
of the hospital environment that assists in their wellness and offers a 
formal means of transition back to the military or civilian workforce. 
The program's goal is to match Service members with opportunities that 
consider their interests and utilize both their military and non-
military skills, thereby creating productive assignments that are 
beneficial to the recuperation of the Service member and their outlook 
on the future.
    Since 2006, we have placed 315 Service members within 80 
participating Federal agencies and subcomponents. There is no shortage 
of employment opportunities, and many of our new agency partners result 
from specific requests by Service members for a particular type of 
work. The average length of an assignment is three to five months for 
15 to 25 hours a week.
    To meet new Service members for the program, the Department holds 
regular info sessions twice a month at Walter Reed Army Medical Center 
(WRAMC). Federal employers in the program are also invited to attend 
these sessions to speak about their job and career opportunities.
    Service members must be medically cleared to participate in 
Operation Warfighter, and work schedules need to be flexible and 
considerate of the candidate's medical appointments. Under no 
circumstance will any Operation Warfighter assignment interfere with a 
Service member's medical treatment or adversely affect the well-being 
and recuperation of Operation Warfighter participants.
    Through this program, Service members are able to build their 
resumes, explore employment interests, develop job skills, and gain 
valuable Federal government work experience to help prepare them for 
the future. Many Operation Warfighter participants will transition out 
of the military due to a medical retirement. It has been our experience 
that, while these Service members will no longer be in ``uniform,'' the 
large majority are still interested in serving their country in some 
capacity and see working for the Federal government as an ideal 
solution.
    The Federal agencies and subcomponents acting as employers in the 
program have benefited from the considerable talent and dedication of 
these recuperating Service members. Approximately 40 permanent job 
placements have resulted from Operation Warfighter assignments upon the 
Service member's medical retirement and separation from military 
service.
    The Department of Homeland Security has been one of the most active 
participating agencies in the Operation Warfighter program. Within the 
Department of Homeland Security alone, we have placed 40 Service 
members, 12 of whom were permanently hired. One recent successful 
placement was that of SPC Robert Kaminski, who began working with the 
Federal Air Marshal Service last April while he was convalescing at 
WRAMC. Specialist Bob Kaminski was assigned to Flight Operations during 
his recuperation from loss of a leg from an Improvised Explosive Device 
explosion. His colleagues remarked, ``Bob was given relevant, 
meaningful work from day one, and he was a valued asset. His qualities 
of dedication, good humor, and courage were an inspiration to the 
entire division, and served as a reminder of the importance of our 
ongoing mission.''
    When he became eligible for the Community Based Health Care 
Organization program to receive his outpatient care close to his home 
in western Pennsylvania, the Federal Air Marshal Service retained him 
in their Pittsburgh field office. He recently wrote to us, ``If you 
want, tell them about my story. I think it's a great opportunity for 
the wounded warriors coming back. Thanks again for all your help.'' 
Another success story is that of SGT Elmer Armstrong, who worked an 
Operation Warfighter assignment with the United States Secret Service 
for almost a year. When he transitioned out of the military this past 
September, the Secret Service hired him. While the focus of Operation 
Warfighter will always be on the work experience that a candidate 
receives, many agency partners have looked at the program as a vehicle 
to hire transitioning Service members.
    Operation Warfighter is not just about employment. For many 
recovering Service members, the program represents the first 
opportunity to return to work outside of the hospital environment. It 
is a time for easing transitions, for rediscovery during reintegration, 
for increasing self-worth. Placing Service members in supportive work 
settings that positively impact the recuperation process is the 
underlying purpose of the program. We view this program as being 
immensely important in rebuilding lives, one life at a time. We are 
committed to helping any and all who need our help to do so, and we 
appreciate your interest in the program.
    Thank you.

    Mr. Carney. Thank you, Secretary Arsht. I appreciate your 
testimony.
    And I recognize Mr. Hilleman to summarize his testimony for 
5 minutes.

   STATEMENT OF ERIC HILLEMAN, DEPUTY DIRECTOR, LEGISLATIVE 
     AFFAIRS, VETERANS OF FOREIGN WARS OF THE UNITED STATES

    Mr. Hilleman. Thank you, Chairman Carney, Ranking Member 
Rogers. I ask that my complete statement be made part of the 
record, please.
    Mr. Carney. Without objection, so ordered.
    Mr. Hilleman. Thank you.
    On behalf of the 2.3 million men and women of the Veterans 
of War Foreign Wars and our auxiliaries, I thank you for 
inviting us to testify at this important hearing today.
    We strongly believe that recruiting, hiring and promoting 
veterans into the Federal agencies is a natural fit for 
veterans and for the Government. We have long advocated for 
greater emphasis in the areas of veterans preference. We 
believe that education and gainful employment are fundamental 
for the transition back to civilian life.
    The VFW applauds this committee for focusing its efforts on 
veterans preference in the Department of Homeland Security. We 
are heartily encouraged by the ongoing efforts and the 
leadership that DHS has demonstrated in attracting veterans to 
Federal employment.
    The VFW recognizes the growth need to attract young, 
talented veterans to Federal service. According to the Office 
of Personnel Management, the Federal Government anticipates an 
18.5 percent government-wide retirement rate between fiscal 
year 2006 and fiscal year 2010, with a continuing upward trend 
in the coming years.
    Since the Civil War, veterans of the Armed Forces have been 
given some degree of preference in obtaining Federal 
employment. In recognition for their sacrifices, Congress 
continues to enact laws to prevent discrimination for military 
service.
    The Office of Human Capital within DHS is filling vacancies 
within the confines of these laws. With the recent formation of 
the Veterans Outreach Council, they have enlisted the support 
of numerous offices across Government throughout the veterans 
service community, and they are interested in staffing higher 
levels of veterans than ever before.
    During a recent meeting on November 6, 2007, DHS reported 
on recruitment activities and elicited ideas for future 
endeavors. The three-part recruitment approach includes events, 
outreach and partnership. The Department's veterans recruitment 
strategy is in its early stages of development. DHS regularly 
attends veterans-focused job fairs. They have also launched a 
veterans-centric Web page. And the recent formation of their 
advisory council draws on the experience and the ongoing 
efforts to employ veterans and service disabled veterans.
    The VFW sees a number of challenges in successfully 
carrying out this campaign. The challenge primarily will be 
funding. As we have seen with the VA and other agencies, DHS 
could quickly become a victim of its own success. By increasing 
veteran applicants and by wider publication of the program, the 
large inflow of paper can quickly inundate a small staff. This 
overburdened staff faces the daunting task of placing these 
veterans within the numerous components of DHS. So, too, 
educating DHS staffing managers on veterans preference law and 
further training on accommodation of persons with disabilities 
require a great deal of resources. We urge Congress to value 
this program and implement a lasting funding stream for this 
program.
    Further consideration is needed in publicizing the program 
externally. While DHS is ramping up efforts to attract 
veterans, educate veterans, the key is letting veterans know 
about the preferences and the fast-track authority.
    Veterans with the greatest need for opportunities are 
service-disabled veterans. There is no greater key to restoring 
a disabled veteran's income, self-reliance and repaying our 
Nation's eternal debt like that of providing a hand up, versus 
a handout. We urge DHS to focus strongly on educating as a 
means of publicizing employment opportunities within the 
agency.
    We believe a robust veterans employment preference program 
could lead the way toward greater outreach efforts across the 
Federal Government. The VFW hopes this program will be 
developed and maintained as an example of efficient and 
compassionate governance.
    Continued congressional oversight, leadership within the 
agency and feedback from veterans on this program will 
determine the depth and breadth of its success. The VFW looks 
forward to working with both this committee and the Department 
of Homeland Security to make this program an example for others 
to follow.
    Thank you.
    [The statement of Mr. Hilleman follows:]

                 Prepared Statement of Eric A. Hilleman

    Mr. Chairman and Member of this Subcommittee:
    On behalf of the 2.3 million men and women of the Veterans of 
Foreign Wars of the U.S. (VFW), this nation's largest combat veterans' 
organization, I would like to thank you for the opportunity to testify 
today before you today.
    We strongly believe that recruiting, hiring and promoting veterans 
into the various Federal agencies is a natural fit for veterans and the 
government. We have long advocated for greater emphasis in the areas of 
veteran's preference in filling federal vacancies. We believe education 
and gainful employment are the fundamentals for a successful transition 
for all service members. The VFW applauds this committee for focusing 
its efforts on veterans' preference within the Department of Homeland 
Security (DHS). And we are heartily encouraged by the ongoing efforts 
and leadership that DHS has demonstrated in attracting veterans to 
federal employment.
    The VFW recognizes the growing need to attract young and talented 
employees to federal employment. According to the Office of Personal 
Management (OPM), the federal government anticipates an 18.5 percent 
retirement rate government wide between fiscal year 2006 to fiscal year 
2010. The continuation of this trend shows the federal government 
loosing 40 percent of its work force in the coming years. To fill this 
yawning gap, the VFW believes, there is no better applicant than 
Americas young veterans.
    As employees, America's service members are known for their 
discipline, technical skills, and leadership. Our military is the 
finest and most technologically advanced in the world. Our nation 
invests billions of dollars annually training and developing in our 
troops the technical skills, loyalty, discipline, selflessness, 
leadership, and the ability to follow instructions and perform under 
pressure. This is the skill set of a military veteran.
    Despite service members qualities, they experience trepidation in 
entering the work force. A November 5th Military.com poll illustrates 
the need for assistance for recently departed service members. Of 4,442 
military or veteran respondents, eighty-one percent of transitioning 
military personnel surveyed revealed that they do not feel fully 
prepared to enter the job market. Of those who feel unprepared: 
seventy-two percent of respondents feel unprepared to negotiate salary 
and benefits, seventy-six percent report inabilities to effectively 
translate their military skills to civilian terms, and fifty-seven 
percent are unsure of how to network professionally. While our service 
members may possess the skills to perform the job and the discipline to 
see work through to completion, they lack the confidence and the 
knowledge to market their own strengths.
    This sector of the veterans' population is a rich environment for 
federal recruiting. While service members may not be comfortable 
navigating the job market, federal employment offers them many of the 
same factors that attracted them to military service: a sense of 
service, innovative training, opportunities for travel, and competitive 
benefits. Also, the bulk of Military Occupational Specialties (MOS) 
translate directly into federal job descriptions, especially when using 
web based tools like the One Net Center: http://online.onetcenter.org/
crosswalk.
    The Miltiary.com survey also included input from 287 recruiters and 
hiring managers from a variety of businesses and industries of all 
sizes. The survey results stated that sixty percent of hiring managers 
and recruiters reported favorable attitudes toward employing veterans, 
yet many face difficulties recruiting and hiring from this talent pool. 
Sixty-one percent reveal they do not have a complete understanding of 
the qualifications ex-service members offer. Sixty-four percent feel 
that veterans need additional assistance to make a successful 
transition into the civilian job-seeking market, with twenty-seven 
percent citing the need for stronger interviewing skills. Fifty-three 
percent of employers spend two percent or less of their recruitment 
advertising budget on targeted military hiring. Due to employers' lack 
of understanding and undervaluing veterans as employees, many do not 
seek out these extraordinary Americans.
    The lack of understanding by private industry further creates an 
opportunity for federal employers, but it also presents a number of 
challenges. The lack of private sector recruiting reduces the 
competition for federal recruiters in attracting skilled veterans. In 
order to capitalize on this market trend, federal recruiters and 
managers must be able to recognize and translate military skill sets 
into the needs of the given opening. The managers and recruiters must 
also have current training in veterans' employment standards as 
prescribed by the Office of Personal Management (OPM).

Veterans Preference Background
    Since the Civil War, veterans of the Armed Forces have been given 
some degree of preference in obtaining federal employment. In 
recognition of their sacrifices, Congress continues to enact laws to 
prevent veterans seeking federal employment from discrimination for 
their military service. Veterans' preference recognizes the economic 
loss suffered by citizens who have served in uniform, grants veterans a 
favorable competitive position for Government employment, and 
acknowledges the larger obligation owed to disabled veterans.
    The Veterans' Preference Act of 1944, established the modern form 
of veterans' preference and is now codified in various provisions of 
Title 5, United States Code. Title 5 states that veterans, who served 
in military campaigns or are disabled, are entitled to preference among 
competitive applicants, and their retention is protected during 
reductions of the work force. In addition to receiving preference in 
competitive appointments, veterans may be considered for special 
noncompetitive appointments for which only they are eligible.
    The Rehabilitation Act of 1973 (Pub. L. 9309112, Title V), as 
amended (Pub. L. 9309516), requires the development and implementation 
of affirmative employment programs for the hiring, placement, and 
advancement of individuals with disabilities, as well as annual 
reports. Further, Executive Order 13164 requires Federal agencies to 
establish written procedures to facilitate the provision of reasonable 
accommodation for individuals with disabilities so that they can enjoy 
the benefits and privileges of employment equal to those enjoyed by 
employees without disabilities.

Department of Homeland Security's (DHS) Veterans Outreach Initiative
    The office of Human Capital, within DHS, is engaging veterans at 
many levels with the goal of recruiting from among their ranks. With 
the recent formation of a Veterans Outreach Advisory Council they 
enlisted the support of numerous offices across government and 
throughout the Veterans Service Organization (VSO) community. During 
the recent meeting of November 6, 2007, DHS reported on the past 
recruitment activities and elicited ideas for future endeavors. The 
three-part strategy recruitment approach includes events, outreach, and 
partnership.
    The veterans' recruitment strategy is in the early stages of 
development. DHS regularly attends veterans-focused job fairs. They 
have also recently launched a veterans-centric page with a number of 
pertinent links on the DHS's web site. The recent formation of the 
advisory council is a positive step to draw on the experiences and 
ongoing efforts to employ veterans and service disabled veterans. The 
VFW is very encouraged by the ongoing efforts and hopeful to broaden 
the campaign to attract a dedicated and deserving population of 
America's veterans.
    The VFW sees a number of challenges in successfully carrying out 
this campaign. Of which, the primary challenge is adequate funding and 
more full time DHS staff solely dedicated to this program. As we have 
seen in VA, and other agencies, DHS could quickly become a victim of 
their own success. With an increase of veteran applicants and wider 
recognition of DHS's desire to attract skilled applicants, the larger 
number of applications and inflow of paper will quickly inundate the 
small staff working on this initiative. This overburdened staff will 
face the daunting task of placing these veterans within the numerous 
components within DHS. The complexity of the training is great; each 
component requires specific skills, each staffing manger of each 
component will require training on veterans' preference law, and 
further training on accommodation of persons with disabilities in the 
workplace. We urge Congress to value this program and implement a 
lasting funding stream to sustain it into the future.
    Further consideration is needed in publicizing the program 
externally. While DHS is ramping up efforts to attract veterans, 
education on veterans' preference appointments is paramount. The 
veterans with the greatest need for opportunities are service-disabled 
veterans. There is no greater key to restoring a disabled veteran's 
income, self-reliance, and repaying our nations eternal debt like that 
of providing a hand-up vice a handout. We urge DHS to focus strongly on 
educating as a means of publicizing opportunities within the agency.
    We believe that a robust veterans' employment preference program, 
such as this, could lead the way toward greater outreach efforts across 
agencies to attract veterans. The VFW is hopeful that this program will 
be developed and managed as an example of efficient and compassionate 
governance. Continued Congressional oversight, leadership within the 
agency, and feedback from veterans on this program will determine the 
depth and breadth of its success as a model for future implementation 
of veterans' preference.
    The VFW looks forward to working with both this committee and DHS 
to make this program a success. We welcome any questions that this 
committee may have, thank you.

    Mr. Carney. Thank you, Mr. Hilleman.
    And I want to thank everyone for their testimony.
    We will have 5 minutes of questions between Mr. Rogers and 
myself, since we are just a duet today. We will go back and 
forth until we are out of questions. But I will first recognize 
myself for 5 minutes.
    Ms. Perez, you tell us that there are over 40,000 veterans 
employed by the Department. Very good news. Hiring numbers have 
increased in the past 2 fiscal years, with CBP and Immigration, 
at ICE, hiring three times more than the previous years, and 
then FEMA doubled its numbers in the past 2 years. That is 
correct?
    To what can we attribute these increases? A large number of 
vacancies? High attrition? Good recruiting? What types of 
positions are veterans filling? Is there a breakout between 
management and nonmanagement positions and those sorts of 
things? Can you give us kind of a sense of that, please?
    Ms. Perez. Sure, be happy to.
    To what do we attribute the success? In my opinion, it is 
all of the above. It is outreach. It is the fact that we have 
increased the number of our vacancies at the Department, and 
the number of new jobs in the Department has increased as a 
result of presidential mandates, congressional mandates, 
additional funding. So we have had a surge, if you will, of 
opportunities to come to Homeland Security.
    As a result of the opportunities and the commitments that 
we have made that we would hire, you know, thousands of 
individuals in 2006 and 2007 and 2008 and going forward, we 
have done extensive outreach. And as I mentioned in my opening 
statement, we feel that the veteran community is one where we 
can draw from absolutely talented people with the experience 
and the commitment that we need. So we do a lot of outreach in 
the community that TSA does, CBP, all of our components, as 
well as headquarters.
    So that is the good news and the reason why I think so many 
of them are coming onboard.
    Our rate in our supervisory management ranks I think is 
about 28 percent of them are veterans as well. So, you know, we 
have veterans across the entire Department. We also have, as I 
mentioned earlier, the disabled veterans as well.
    Did I get at all the points you raised?
    Mr. Carney. You did, actually. You did a very nice job.
    Another question--This is for everyone, Ms. Arsht 
especially. Mr. Hilleman highlights that there has been 
success, and that is very good, especially within DHS. And what 
we want to see is that success continue, but we don't want to 
risk it by not having enough dedicated staff.
    I mean, do you all see value in having somebody at DHS 
dedicated--I mean, a line item dedicated to this kind of 
recruiting and outreach to the Department of Defense and to 
veterans, you know, rather than just have it--it is not exactly 
ad hoc, but have it more formalized. Do you see a value in 
that?
    Ms. Perez. Well, at Homeland Security, absolutely, it would 
be very beneficial. We have, sort of, centralized the 
initiative at headquarters. It is out of my office. The 
initiative around the employment, sort of the three-pronged 
initiative is managed out of my office.
    One of the concerns that I have, to be very candid with 
both of you, is that we have, as you know, in the 
appropriations, the House appropriations for 2008 and the 
Senate appropriations, there is a recommendation that our 
budget, the budget in my office, be cut from $15 million to $3 
million in the House budget and to $5 million in the Senate 
budget. Those budget cuts would have a significant impact on 
any program that is outside of our normal, you know, salaries 
and expenses.
    So do I think that the funding for these programs is 
absolutely important? Do we think that dedicated resources is 
important? And do we think, as Mr. Hilleman mentioned, that we 
may be the victim of our own success, in terms of influx of, 
you know, e-mails and questions from our veterans? Possibly. 
But we just think it is too important and too valuable a tool 
not to utilize.
    So with your help and if you call the appropriators and you 
ask them to keep money coming our way, I think we will be in 
good shape. Thank you.
    Mr. Carney. Ah, those appropriators. I appreciate it.
    Ms. Arsht, what is your opinion on that?
    Ms. Arsht. Since you mentioned the transition assistance, I 
thought I would take the opportunity to speak to a new, more 
robust effort on our part, working with our partners at the 
Department of Labor and at the Department of Veterans Affairs.
    In transition assistance, we have launched a program called 
TurboTap, initially designed to meet the considerable needs of 
our Guard and Reserve members who don't want to stay at 
demobilization sites to go through the traditional 2 1/2 days 
of preseparation counseling, which we do, and the employment 
and benefits counseling which Labor and VA do.
    TurboTap is designed to be 24/7, anytime, anyplace access 
to your benefits, where members can create their own accounts, 
individual accounts. They can maintain them throughout their 
service years. Initially, as I say, we are focusing on making 
more robust services for Guard and Reserve, but eventually we 
think this will be an active retention tool for our active duty 
of all components.
    Part of this new online service is an employment hub, which 
the Department of Labor has created and which is cited there, 
which connects into career one-stops but also allows other job 
boards, some of them run by the VSOs, to post active jobs 
directly for veterans.
    So, again, I think that this relationship, the more that we 
do focus on our service member as the client, the person that 
we are all trying to serve, the more our services from across 
the agencies and across the executive branch, those agencies 
will dovetail and will support each other.
    Mr. Carney. Well, as somebody who demobilized, I didn't 
like the outprocesses very much myself, hanging out to do very 
little, I thought. It makes sense to me that we encourage those 
who don't have necessarily a direction to go to put them toward 
Homeland Security. I think it makes a lot of sense.
    I am over my time. I now recognize Mr. Rogers for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to ask Ms. Perez if you can answer this with some 
specificity. It may be a little bit too narrow a question. I 
don't know.
    You made reference to the fact that ICE and CBP have been 
able to turn to veterans as an applicant pool. One of my 
concerns and criticisms about CBP and its effort to grow the 
Border Patrol's ranks to 19,000, roughly 19,000, agents is that 
they don't seem to be able to attract a large enough pool of 
qualified applicants to go into the academy in New Mexico in 
order to turn out that number by the end of next year. When I 
went out and toured the facility and asked the folks at the 
Department exactly what they were doing to recruit this number 
of people, they couldn't tell me exactly how they thought they 
were going to be able to get these numbers.
    Can you tell me specifically how you are trying to 
recruit--it seems like the veterans are such a great match for 
that institution. What are you doing, with some specificity, to 
recruit those veterans for CBP?
    Ms. Perez. Yeah, well, first of all, I would acknowledge 
with my colleagues with CBP that the numbers that they have to 
hire are staggering numbers. I am pleased to report that for 
2007--we just completed our annual report, and they met their 
targets for 2007, which were a little over 3,000 agents.
    And their outreach--and I have actually been very involved 
and briefed numerous times, because this is a priority, 
obviously, of the administration. It is a priority of Secretary 
Chertoff, so we have been briefed numerous times on the 
outreach efforts.
    It takes--and maybe, if I am wrong, I will come back to you 
and correct myself, but my understanding is it is almost 30 to 
one. They have to process 30 individuals in order to get one 
individual into the academy, which is--if you were at the 
academy--and I have been to the academy--the academy staff may 
not be all aware of--they have basically decentralized their 
hiring efforts, doing a lot of regional hiring that has reduced 
the time that it takes to hire.
    Part of the problem that we have in Government, sometimes 
it takes us--it is a long time between when you first get a 
notice that they are interested in you and then by the time the 
applicant, you know, gets actually notified that they are 
hired. CBP has made incredible progress in actually doing what 
is called High Touch recruiting, which is where we actually 
stay in touch with the applicants through the process.
    So the Department, I think, is poised to meet the 
requirements, but you are right in that the numbers are 
staggering, and then putting them through the academy is more 
complex.
    The veterans--certainly my experience has been that they 
are doing a great deal of outreach in the veterans community. 
But I will get back--if there is a perception on your part that 
we are not doing enough in that regard, I will go back. I think 
I mentioned over 27 percent of our agents are, in fact, 
veterans. For us, it is absolutely an applicant pool that is a 
fabulous resource.
    So we agree with you, it is challenging. We think we are 
going to--we met it in 2007. We think we will continue to meet 
the hiring targets and the commitments that we have made to the 
administration.
    Mr. Rogers. Do you know exactly how that outreach is being 
made to veterans, for CBP in particular? I mean, what 
methodology do you use to contact them?
    And if one of you knows, I would love to hear from you.
    Ms. Perez. Yeah, I would have to come back to you, sir, 
with specific information in terms of--we do a lot of outreach 
with the actual veterans services organizations, the TAP 
programs, transition programs and so forth. But my preference 
would be, Mr. Rogers, to come back with a more specific--from 
the Department, from the component, specifics on veterans 
outreach, rather than guess.
    Mr. Rogers. Thank you.
    Mr. Hilleman, you made reference to the fact that you would 
like to see better notice to veterans about preference 
programs. What could DHS do better to make veterans aware of 
those preference programs?
    Mr. Hilleman. Thank you for your question, sir.
    There are a number of avenues available to DHS, as well as 
Federal Government, to make the employment practices and the 
hiring preferences known to veterans. DHS has a program for 30 
percent disabled veterans, to fast-track their recruitment 
effort. It allows them to forgo some of the cumbersome hiring 
processes that all Government agencies are bound by but that 
other veterans with only a five-point preference or lesser 
disability do not qualify for. Making things like this known in 
the community is very important.
    I first came into contact with a member of DHS at a 
recruiting fair, and he was very proactive. He came up to me, 
introduced himself. He explained what they were doing. He 
talked highly about how they have been able to attract more and 
more disabled veterans. It was very heartening to me.
    So every disabled veteran that I have come in contact with, 
just as word of mouth, I let them know that DHS is hiring. 
Publicizing something like the fast-track authority that they 
are able to apply in hiring disabled veterans is huge. It means 
a lot to young men and women who are trying to figure out how 
they are going to get their lives back together.
    Mr. Rogers. Are you aware of any exit package that is 
presented to disabled veterans when they are looking at their 
horizon of opportunities that might include these kind of 
preference programs?
    Mr. Hilleman. A number of veterans are made aware of the 
different avenues for employment after service disability. 
Typically, when a veteran is disabled, they are eligible for 
vocational rehabilitation. They get special preferences. 
Veterans get special preference when it comes to, like, 
employment offices.
    There are a number of means to explore publication. I would 
be remiss if I sat here and said I could come up with all of 
them. The Department of Homeland Security has done a good job 
of bringing together some experts in an advisory setting. And I 
know, from attending an advisory meeting, a number of ideas 
have been discussed, some of which are making veterans-centric 
pamphlets, catering hiring videos toward veterans.
    In terms of getting that information before them, I would 
suggest using Department of Labor's DVOPs and LVER program, 
which is employment outreach, as well as VA's vocational 
rehabilitation. Those are the two that make immediate contact 
with veterans on a regular basis.
    Mr. Rogers. Thank you.
    Mr. Carney. Thank you, Mr. Rogers.
    Mr. Hilleman, you cited in your testimony the November 5th 
poll that a majority of respondents don't feel prepared to 
enter the job market, the veterans. And we know that they 
possess the kinds of skills that DHS could use, certainly the 
Federal Government could use as well.
    Are there ways, do you think, we could assist the veterans 
getting out to feel more confident that they could actually 
make a contribution, that they would be welcomed?
    Mr. Hilleman. I think there is always work to be done, in 
terms of transition. I hear the phrase ``seamless transition'' 
repeated and repeated and repeated on the Hill. And Government 
and private-sector seamless transition is anything but 
seamless. It is, in some places, beyond a gap. Many veterans 
have to make that decision whether to go to work today or seek 
an education to feed their families. And when they make those 
simple decisions, it is a decision on the margin, what is best 
for me. When they find out what they are entitled to in terms 
of Government employment prospects, they have an opportunity. 
And whether they seek to take that opportunity or not depends 
on their personal circumstances.
    Preparing them to enter the job market is something that 
the Defense Department is not equipped to do. It is not tasked 
with educating veterans on their employment opportunities. They 
do a transitional assistance program.
    Mr. Carney, you, yourself, talked about your outprocessing. 
I imagine you got a lot of information in a very short period 
of time. Not much was relevant to you at the immediate moment, 
while you were thinking about returning to your family.
    Mr. Carney. I already had a job, coming back. You know, I 
was a professor at Penn State, so I was probably going to stay 
there.
    Mr. Hilleman. Yeah. So it is a tumultuous period for a 
young person.
    Mr. Carney. Right.
    Mr. Hilleman. I am sorry. I wish could I say more about it. 
I can speak anecdotally, but I really couldn't point to 
anything more than that, sir.
    Mr. Carney. But do you have a sense of why they don't feel 
qualified?
    Mr. Hilleman. I think that they feel qualified. They feel 
qualified for the positions. They can do the job.
    I will speak from my own personal experience. When I left 
the United States Marine Corps after doing diplomatic security 
for 2 1/2 years and working in some relatively hostile 
environments, I felt pretty equipped to handle anything. Did I 
know how to get there? No.
    I have many counterparts who I served with who filled out 
Federal applications that were pages and pages and pages long, 
and they thought, ``Man, what is this going to get me?'' You 
know, it is a shot in the dark.
    Ms. Perez talked about, you know, High Touch. I think that 
is very important. Letting a veteran know or an individual 
know, ``Yes, we have gotten your application; we are still 
reviewing it.'' But I applied to Federal jobs when I left 
service. It was a black hole. My applications just went away. 
It was a lot of work with little reward.
    So, from my personal experiences, I would suggest some sort 
of--I know Government doesn't do a very good job of this, but 
some sort of personal contact with those veterans, giving them 
some idea of what is in store for them, a little bit of 
counseling along the way. And I know that it is burdensome and 
it takes time out of people's schedules to sit down on the 
phone and make themselves available, but that is what has to 
happen.
    Mr. Carney. Some more follow-up?
    Mr. Hilleman. Yes, absolutely.
    Mr. Carney. Ms. Perez?
    Ms. Perez. Yes, one comment, that the veterans authorities 
are absolutely fabulous and much needed. It is very difficult 
to apply to a Federal job for a variety of reasons. But one of 
the VRA, Veterans Recruitment Authority, is one that allows 
them to bring them from a GS-5 up to a GS-11, where we can hire 
noncompetitively, and then they can be, over a 2-year period, 
be on the job, we require some training, and then they can be 
promoted competitively.
    It is a way to bring them in. It is early in their career, 
and then be promoted up to GS-11, which in the Federal 
Government is a reasonably good job, and not have to go through 
the competitive process, which can be extremely long, you know, 
takes a long time to process. We are also trying to expedite 
that, but it still takes a long time.
    Mr. Carney. Is there any way, Ms. Arsht, we can reduce the 
paperwork, of filling that out? Because I had to do it, too.
    Ms. Arsht. Well, I can't help you with the Federal 
employment process. But in terms of what the service member 
knows about his or her competitiveness in the marketplace and 
how to get from the skills they have to the skills they need, 
or understand they need, and how to position themselves, I do 
think this is a place where TurboTap is a tool--just a tool--
that will allow service members to sort down to the priorities 
of their interests at the moment.
    I mean, I really think that this is--we are in a world of 
immediate need. You want to be able to--when you realize you 
have an issue, you want to go deal with it. You don't want to 
have to hear about 20 other things in order to get to the one 
that you want. And that is sort of the setting that we have had 
in the past, the classroom setting where you had to sit through 
everything to get to the thing you wanted. This will allow a 
service member to go in and sort, ``I want to go back to 
school,'' and look at the issues and benefits related to that 
and what the rules are, and go to, then, your assistance 
counselor to talk about that.
    Or if it is--you don't want to go back to the job that you 
had, which we often hear. You go down range, you have a whole 
different perspective on life. You want to do something more. 
You want to be in control. These kinds of experiences, to be 
able to come back and say, ``I want to be counseled into a 
career track.'' We actually believe that we need to start those 
conversations earlier.
    For instance, now the Navy links a credential to every rank 
step-up improvement that you receive. So you are building your 
credentials that are valued on the outside as well as on the 
inside of the service. And each of the services are looking at 
this mechanism for identifying career tracks and helping people 
see that they are on a course. It is not a beginning, a middle 
and an end and start over again. It is all connected.
    So I really think we are all focused now on getting better 
at this. Whether that works on the Federal application process, 
I am not sure.
    Mr. Carney. We will work on that, too.
    Mr. Rogers?
    Mr. Rogers. Thank you, Mr. Chairman.
    Ms. Arsht, you made reference to the fact that in Operation 
Warfighter you had 376 placements of veterans. I took it--and 
maybe I am assuming incorrectly--these were people who were 
either in Walter Reed or Bethesda. Is that the pool that you 
are working with?
    Ms. Arsht. Correct.
    Mr. Rogers. This 376, is that drawn from a--how many 
potentially could you have worked with? Is that half? Is that 
75 percent, is that 100 percent of the people that would be 
eligible for this program?
    Ms. Arsht. No. The issue of eligibility really has to do 
with readiness of the service member and the recovery period. 
So the medical command has to have medically cleared the 
service member to take the outside assignment. And that, 
obviously, is very individual. So some service members are 
eager earlier and capable of doing it, and they get right 
onboard. Others, it takes longer. And so----
    Mr. Rogers. Does this 376 represent all the people who want 
to participate who are medically cleared and otherwise 
eligible?
    Ms. Arsht. Yes. There is probably a group. Every week we 
add more service members who come to the every-other-week 
meetings to see what it is about and whether they are ready and 
to talk to employers. Some will start to pursue it right then. 
Some will wait another month or 2. And so it is very 
individual, both the placement and the desire to get involved.
    Mr. Rogers. The same thing with the 40 permanent post-
separation placements. Does that represent pretty much most 
everybody who was trying to get post-separation placements?
    Ms. Arsht. Yes. And we have had other placements outside of 
Operation Warfighter. Someone left Operation Warfighter and 
went to a nongovernment position. We have many of those. I 
don't have those numbers with me today.
    Mr. Rogers. Okay.
    Ms. Arsht. We actually seek to service members. So if he or 
she wants to stay in the agency they are in, we will work with 
that employer. If they are looking for a local job back home in 
another activity but the same line of work, the Department of 
Labor would step in and try to help with that.
    Mr. Rogers. Thank you.
    Ms. Perez, I want to visit this process of vets applying. 
As a member whose largest employer in his district is a DOD 
facility, I hear complaints all the time from folks applying, 
particularly veterans, that they have to apply online. The 
computer, from what I have learned, basically scans their 
application for key words. And then those people who know how 
to post their application and the correct wording get on the 
eligible list. The thing occurs with promotions.
    For a veteran or, for that matter, anybody else who wants 
to come to work for DHS, what is the process mechanically to 
apply? Is it all online?
    Ms. Perez. The processes are pretty much online. And, in 
fact, it is a requirement in the Federal Government that any 
competitive promotion, any competitive advertisement has to be 
done through the Office of Personnel Management, USAJOBS, which 
is an online service. And, frankly, it is a way to provide 
access to thousands of individuals outside of the immediate 
area of recruitment and so forth. So, for the most part, it is 
probably a good thing.
    The problem becomes when you submit an application that is 
either incomplete or--one of the problems that we have found 
and the reason why we have incorporated into the Web site that 
we have now for helping veterans apply is that sometimes they 
would submit the application--when I was at OPM, I did a lot of 
auditing of what agencies were doing relative to veterans' 
hire, as well as work with the hospital in helping veterans who 
wanted to find employment. Some of the problems that we 
encountered were that when they submitted their application, 
they would use a lot of the terminology they used in the 
military that didn't really have any application in the 
civilian world. So we are helping them, kind of doing 
translating, if you will, converting, what we call the 
converter, converting the jargon to the civilian jargon. So 
that is a way that we are helping them.
    We are actually looking to improve our outreach across the 
board, veterans and nonveterans.
    Mr. Rogers. Let me interrupt you just for a minute.
    Ms. Perez. Yes.
    Mr. Rogers. When you say you help them convert the jargon, 
is this a live person who is helping them?
    Ms. Perez. It is a tool, the online Web site. You can go to 
a place, there is a converter and you can key in whatever the 
numbers are. And we tested it when we had our meeting 2 weeks 
ago with the veterans organizations. You put in whatever job, 
you know, you did in the military. That might have had a number 
or something associated. It actually converts it to civilian 
jobs of that for which you are now eligible to apply or at 
least have competencies and skills.
    Mr. Rogers. Can I get one of those for my CPA? Because she 
and I talk in completely different languages.
    Ms. Perez. We can work on that, sir. Yeah.
    Mr. Rogers. I know I interrupted you.
    Ms. Perez. No, no. I was going to say, so that is just--we 
are actually also trying to improve our recruitment period and 
have engaged with organizations to help us do a lot more of the 
outreach.
    I think that the High Touch, it is a way that we are going 
to--when we go to the applicants and you survey applicants 
relative to the Federal process, time and time again the 
biggest complaint is that we never hear back. So what we are 
trying to do is, okay, we want to make sure that we respond to 
the applicants, that we stay in touch with them. If we are not 
interested, that we notify them, you know, right away that we 
are not interested in them. Or if we think that, even it is a 
protracted process, you know, that we just keep them involved 
or at least knowledgeable.
    We also are hoping to get available online our e-
recruitment system, which we are in the process of 
implementing. We hope to have something in the beginning of the 
year. You can actually, as an applicant, you can go online and 
find out where you are in the application process. So we are 
trying to get there. We are not there yet.
    Mr. Rogers. Specifically, if veterans are interested in 
going to work for DHS, where do they go on the Internet?
    Ms. Perez. Right now you can go to dhs.gov and there is a 
veterans link. So it is an all-inclusive or one-stop shop, and 
you can go there. And from there, you can actually connect to 
DOD, Department of Labor, OPM and all the other sites that have 
veterans information. We think it is quite a helpful site.
    Mr. Rogers. Okay.
    My last question is, you all are at roughly 25 percent, and 
rank seventh in Federal agencies in veteran hiring. What is 
your target goal? Or do you have a target goal that you are 
trying to achieve?
    Ms. Perez. We have target goals to reach across the board, 
in terms of our hiring, period. Meeting all of our target is 
our goal. Leveraging the veterans population allows us to meet 
those targets much quicker, because we have access to 
individuals.
    We don't have a number per se. It has to be 25, it has to 
be 35 or whatever it has to be. We have to meet the targets, 
and veterans is a place where we can go and meet them.
    Mr. Rogers. Thank you very much.
    Mr. Carney. Thank you, Mr. Rogers.
    Ms. Perez, how does your office work with the DHS 
components to identify staffing needs and match them to the 
specific skill sets of veterans? How does that work?
    Ms. Perez. I will explain the process, and hopefully I get 
to your question.
    Basically, my office, we do all the hiring for 
headquarters. So hiring for headquarters happens through my 
office. But in addition to that, we have various councils, that 
we call them. We have a recruitment council--we have a variety 
of councils that meet on a regular basis, where the components 
are represented. My office has the lead.
    And, basically, we work with the councils to ensure that 
any outreach that we do--so, for instance, if we go to our 
veterans, if we go to an event, a hiring/recruitment event, we 
don't just send DHS headquarters, we send the entire DHS. We 
work with the hiring council. We have a staffing council. We 
have a variety of councils and opportunities to reach out to 
the components, work with the components to make sure that we 
leverage the resources of the Department well.
    Does that get to your question?
    Mr. Carney. Well, are the components required to provide to 
you their needs and develop a sort of strategic recruitment 
program?
    Ms. Perez. They are required--yes. In the strategic plan, 
the action plan that we developed last year, we laid out the 
targets for each component. And part of the work that I did was 
basically meet with the components and the leadership of the 
components and said, ``Okay, what are you doing to meet your 
hiring targets?'' FEMA, CBP, TSA, all of the components. So on 
a regular basis, they have provided that information.
    But in addition to that, it is in their interest to 
collaborate. So there is nobody there that is saying, ``Gee, 
these are my hiring needs, and I don't want anybody to know.'' 
They want us to know because they want us to help them with the 
recruitment as well. So it is a very collaborative effort, in 
my opinion.
    Mr. Carney. Mr. Hilleman, do you want to comment on that?
    The question, really, basically is, can DHS do better at 
reaching out to veterans, to identifying, even before they made 
a decision to get out of the military, so you are in that 
phase, is there a way Ms. Arsht should identify those people? 
Should we let the veterans organizations know, should we let 
DHS know, or any Government organization, for that matter?
    Mr. Hilleman. I think that would come through greater 
agency cooperation. DOD has a pretty clear idea of who is 
separating. I mean, VHA has the numbers on the Web site. I am 
sorry; VHA is Veterans Health Administration. Since fiscal year 
2002, over 751,000 service members have become eligible for 
Veterans Health Administration. So there is a population out 
there.
    They are able to identify who is leaving through transition 
assistance programs. That is certainly a jumping-off point. But 
transition assistance programs vary from post to post, and they 
vary from region to region. So standardization could be helpful 
in implementing some sort of publication.
    But cooperation I would suggest as first and foremost would 
be required from DOD, but DOL as well because they contact 
veterans at a much different level, when they are starting to 
enter the workforce.
    Mr. Carney. Uh-huh.
    Do you see that as a problem, Ms. Arsht, that we don't 
have, kind of, consistency across the posts in TAP?
    Ms. Arsht. One of the challenges that we face, as you know, 
each of our services are different. They have a different 
vocabulary, they recruit from different pools, and they have 
different cultures and characters. So there are these 
differences. There is usually an underpinning of likeness in 
the core activities.
    One of the reasons that I hesitate to go toward what you 
might call standardization is because our service members are 
different. They are at different times in their lives. Our 
young members need one set of supports; older service members, 
after a career, need a different set. Our regular service, 
active duty, needs a certain combination of things. Our Guard 
and reserve components need other and additional things.
    So we need flexibility. We need to be responsive. We need 
to be able to map out those differences and be able to support 
them in the way that they need. So that would be my response. 
And I think that is where we are moving, and it is how we are 
trying to organize ourselves.
    I leave tomorrow afternoon to go down to a Department of 
Labor council that is working both across the Federal agencies 
and with the private sector to better understand these 
opportunities and how these partnerships need to work in order 
to become solid funnels of people from where they are to where 
they want to go, but in a way that is, you know, part of our 
culture. We need to be able to pass information, and people 
need to be able to take it and move with it. And that is the 
kind of system that we are working on.
    Mr. Carney. Standardized flexibility, in other words. 
Understood. Okay.
    Well, while certainly no panacea, I think that DOD and 
Veterans certainly can go a long way toward filling enormous 
gaps, what with--DHS across the country, and Government as 
well. I think it is incumbent upon veterans organizations and, 
of course, the DOD to make sure that as much information as 
possible is coming to veterans as they transition out of the 
military, to let them know that they have meaningful positions 
waiting for them once they get out.
    We want to develop--I know Mr. Rogers and I talked about 
this--we want to make sure that the Department of Homeland 
Security develops the culture of what DHS is. When you take 
transitioning veterans who know what the culture of an 
organization means and integrate them into DHS, for example, 
you are going to, I think, facilitate that culture again more 
quickly. I certainly encourage you all to keep working on this. 
I think it is something very, very valuable.
    Hearing no further questions, we will stand adjourned in a 
moment. I want to just make sure if we have further questions, 
we will get them to you. Please respond in writing promptly.
    With that, the committee stands adjourned.
    [Whereupon, at 3:00 p.m., the subcommittee was adjourned.]


             Appendix:  Additional Questions and Responses

                              ----------                              


     Questions from the Honorable Christopher P. Carney, Chairman, 
       Subcommittee on Management, Investigations, and Oversight

                   Responses from Ms. Leslye A. Arsht

    Question 1.: In your testimony you stated that the goal of 
Operation Warfighter is to match service members with opportunities 
that consider their interest and utilize both military and non-military 
skills. Please describe how a typical match occurs. Are you provided 
with the skill set needs of each participating federal department and 
their components? And regarding placements, has there been instances or 
mismatches and if so, what happens in that case?
    Response: To start the matching process, a Service member attends 
an information session at the Walter Reed Amy Medical Center and signs 
up for the program so that can begin the clearance process to 
participate. At that information session, the individual peruses all of 
the profiles that have been submitted by the different participating 
agencies in the program. The Service member has the opportunity to 
speak with agency representatives who are present to discuss their 
particular organizations. The candidate indicates to the Operation 
Warfighter (OWF) program manager the agencies vocational fields that 
are of interest to Those agencies will then interview the candidate and 
hopefully a match will be made that is to the satisfaction of both the 
Service member and the employer.
    The OWF program's focus is to assist and cater to the needs and 
interests of wounded warriors in transition. We hope that the program 
is malleable enough to accommodate Service members who are interested 
in exploring new careers, or in furthering skills that they have 
already developed. For some placements, candidates are looking for more 
of a mentorship experience while others may be able to hit the ground 
running in their areas of expertise.
    There have been rare instances where after a couple months, it is 
determined that the original placement is not working out as well as 
the agency or Service member would have hoped. In those cases, a second 
placement can be made.

    Question 2.: What kind of staff resources are in place for 
Operation Warfighter? And are there any specific time commitments or 
placement commitments that federal agencies need to honor to 
participate in the program? What makes the Department of Homeland 
Security a particularly good partner in this program?
    Response: The Operation Warfighter (OWF) program manager is 
instrumental in connecting the Service member to the agency offering 
the position. Although the program manager is pivotal in placing 
Service members, they do not and cannot operate without other key 
individuals the hospital and agencies.
    Participating agencies understand that Service members' therapy and 
treatment schedules can often prevent them from having standard or set 
hours. The first priority for wounded warriors is to get well, and 
wellness cannot take a backseat to OWF duties. The typical placement 
starts at 2-3 days a week for roughly 15-25 hours. We encourage 
individuals to start slowly, and work into additional hours per week if 
their schedule permits an increased workload. We attempt only to place 
individuals that have a minimum of 3 months to participate in the 
program.
    The Department of Homeland Security (DHS) is a great partner in OWF 
since many of our candidates are interested in DHS jobs and the 
participating DHS components have provided supportive work settings for 
Service members in the program. Many participating DHS components have 
also looked to use OWF as a vehicle for potentially hiring Service 
members who have ``graduated'' from the program and are interested in 
permanent Federal employment.

    Question 3.: Does the Department of Homeland Security attend your 
bimonthly sessions at Walter Reed Army Medical Center to speak about 
the job opportunities available at their Department? What other 
Departments joining you in these sessions?
    Response: The Department of Homeland Security components regularly 
attend our information sessions at Walter Reed Medical Center to 
present their opportunities to potential candidates for the program. 
Every participating agency in Operation Warfighter (OWF) is invited and 
strongly encouraged to attend these sessions as often as possible. Due 
to the large number of agencies participating, however, attendance must 
be coordinated through the OWF program manager. Typically, agencies 
that have been proactively involved in these information sessions 
receive the most placements.

    Question 4.: What component or components hired the majority of the 
veterans who have been placed in the Department of Homeland Security 
through Operation Warfighter?
    Response: No single Department of Homeland Security component has 
hired a large number of Operation Warfighter (OWF) participants, but 
Immigration and Customs Enforcement, Customs and Border Protection, 
United States Coast Guard, and United States Secret Service have all 
had multiple OWF placements and have hired OWF graduates.

Questions from the Honorable Mike Rogers, Ranking Member, Subcommittee 
              on Management, Investigations, and Oversight

                     Responses from Leslye A. arsht

    Question 5.: Could you please explain how DHS coordinates with 
Operation Warfighter?
    Response: At the headquarters level, the Department of Homeland 
Security (DHS) has a main representative that coordinates with the 
Operation Warfighter program manager. Most DHS subcomponents also have 
one additional individual who helps coordinate placements within their 
particular organization.

    Question 6.: How would you characterize the Department's 
participation in that program?
    REsponse: The Department of Homeland Security has been a very 
strong supporter of Operation Warfighter over the past two years and 
the Department of Defense hopes to continue this beneficial partnership 
to assist more wounded warriors in 2008.

    Question 7.: Do you believe that the Department of Homeland 
Security has been a strong supporter of Operation Warfighter?
    Response: The Department of Homeland Security has been a very 
strong supporter of Operation Warfighter over the past two years and 
the Department of Defense hopes to continue this beneficial partnership 
to assist more wounded warriors in 2008.

    Question 8.: Do you have any recommendations for how DHS--or other 
Federal agencies--can expand use of Operation Warfighter?
    REsponse: We hope to continue our partnership with the Department 
of Homeland Security and other Federal agencies to provide meaningful 
work opportunities for wounded warriors in transition. As the Operation 
Warfighter program grows, we hope that agencies will continue to 
support the program and encourage non-participating sub-components to 
get involved.

Questions from the Honorable Christopher Carney, Chairman, Subcommittee 
              on Management, Investigations, and Oversight

                    Responses from Marta Brito Perez

    Question 1: How did the Office of the Chief Human Capital Officer 
at the Department develop its veterans outreach strategy? Is the 
strategy based on a review of best practices from other federal 
agencies that demonstrated strong performance in the recruitment of 
veterans?
    Response: The three-prong Veterans Outreach Strategy was the result 
of experience over the past year in addressing ongoing concerns of 
Veteran applicants individually and collectively. The Department's 
Office of the Chief Human Capital Officer (OCHCO) identified trends 
about the nature of applicants' questions, their lack of knowledge of 
application requirements, and the need to have one information source 
for DHS jobs. Based on this analysis, OCHCO created the one-stop web 
page, established the Veteran's Outreach Advisory Council, and designed 
additional training for the Human Resources and Equal Employment 
Opportunity communities regarding Veterans Preference and other hiring 
authorities.

    Question 2.: As noted by your testimony, the one stop website for 
veterans seeking employment with the Department has been running for 
over one month now. In that time, how many inquires have resulted from 
the website, how many documents have been submitted, and how many times 
has the ``converter'' tool been utilized?
    How is the Department publicizing this new website and what are the 
future plans to get the word out to the Veterans community?
    Response: Since the website's inception, the Department has 
received 231 inquiries. Out of those 231 inquiries, approximately 81 
have submitted attachments such as resumes, DD214's (Military Discharge 
Papers), and VA Disability Letters. At this time, DHS is unable to 
track hits to the converter tool because we are linking to the 
Department of Labor's Occupational Information Network--O*NET--website. 
Currently, the Department is publicizing the new website through word 
of mouth and ongoing career fairs. Additionally, one of the Veterans 
Organizations that participated in the Veterans Advisory Council, the 
Reserve Officers Association, has linked the DHS Veterans page to their 
site. OCHCO plans to further publicize the website on future printed 
materials and recruitment brochures as additional resources become 
available.

    Question 3.: The inaugural meeting of the Department's Veterans 
Outreach Advisory Council occurred in early November. What is the 
specific function of the advisory council--will you develop a list of 
action items, provide a forum for feedback? Are you reaching out to all 
of the veteran's support organizations for their participation and 
input? Who else is participating from the Department itself?
    Response: The function of the Veterans Outreach Advisory Council 
(VOAC) is to advise DHS on the effectiveness of the Department's 
veterans outreach efforts and initiatives; i.e. are DHS efforts 
designed and deployed in a manner that will attract more veterans and 
assist them in applying for vacancies. Representatives at the inaugural 
meeting were very enthusiastic and engaged. They supported the three-
prong strategy and recruitment video, and they recommended that DHS 
develop a recruitment video and brochure specifically targeting 
veterans. OCHCO has solicited their input on: (a) future meeting 
frequency; (b) which additional Veterans Service Organizations to 
include, and (c) agenda topics and potential for a VOAC charter. DHS 
representatives include the Office of the OCHCO, the Office of Civil 
Rights and Civil Liberties, and the U.S. Coast Guard.

    Question 4.: I understand that the Office of Personnel Management 
regularly visits transition centers to educate veterans who are 
separating from the service about the opportunities available to them 
in civil service.Does the Department visit these transition centers in 
joint partnership with OPM or have plans to do so in the future?
    Response: DHS, at the Departmental and component level, has made 
frequent visits to transition centers to share information about 
employment opportunities at DHS. While these visits are not done 
specifically in joint partnership with OPM, DHS representatives 
interact with OPM officials at Walter Reed Army Medical Center on a 
frequent basis and plan to continue this in the future.

    Question 5.: Other than career events at Bethesda Naval Hospital 
and Walter Reed, to what extent does or will representatives from your 
office visit other military hospitals across the nation to educate 
Veterans about job opportunities at the Department?
    Response: DHS components have also visited the following military 
hospitals:
        <bullet> Brooke Army Medical Center, Fort Sam Houston, TX
        <bullet> Madigan Army Medical Center Fort Lewis, WA
        <bullet> William Beaumont Army Medical Center, Ft. Bliss, TX

    Question 6.: I've heard accounts that processing time for federal 
employment, even where a security clearance is not required, takes too 
long and acts as a deterrent to some service members. How long is the 
typical processing time from the time a veteran's application is 
submitted to start date? Do you consider this processing time 
acceptable? What follow-up does the Department do with the veterans who 
have applied to let them know their application has been received and 
is under review?
    Response: The Department adheres to the Government-wide mandate of 
a 45-day hiring cycle, from the closing date of the vacancy 
announcement to a tentative job offer. Once received, applications are 
referred to the appropriate component(s), which in turn contact the 
veteran with a copy to OCHCO. However, most DHS jobs require some type 
of suitability investigation in addition to any required security 
clearance. Depending upon the job and the selected candidate's 
circumstances, this additional time period before a final job offer can 
vary. In Fiscal Year 2008, OCHCO plans to explore means to streamline 
the security process for veterans who are selected for DHS vacancies.

    Question 7.: According to a 2006 Office of Personnel Management 
report, agencies across the federal government are encouraged to 
develop education and training programs that strike a balance between 
the needs of agencies and the aspirations of veterans. To what extent 
is the Department developing such programs for its hired veterans? If 
it is not, are there plans to do so in the future?
    Response The Department's many learning and development programs 
are designed to advance the individual and organizational goals of all 
employees, including veterans. The learning and development programs 
within the DHS University System offer employees a variety of learning 
opportunities in the areas of leadership, preparedness and homeland 
security. Although these programs do not specifically target veterans, 
veterans are able to participate in all DHS University System programs 
and are also able to participate in components' training, education, 
and professional development opportunities.

Questions from the Honorable MiKe Rogers, Ranking Member, Subcommittee 
              on Management, Investigations, and Oversight

                   Responses from Marita Brito Perez

    Question 8.: Do you believe that the Department of Homeland 
Security has made significant progress in its efforts to recruit, hire, 
and promote veterans?
    Response: Yes, especially in the areas of recruitment and hiring. 
During Fiscal Year (FY) 2007, DHS:
        <bullet> Doubled the number of veterans hired from FY 2006: 
        6,013 were hired in FY 2007 versus 3,015 in FY 2006;
        <bullet> Recruited disabled veterans from 132 events and career 
        fairs nationwide;
        <bullet> Hired 771 disabled veterans, more than double the 
        number from FY 2006; and
        <bullet> Promoted 1,340 disabled veterans, an increase of 57.1 
        percent from FY 2006.

    Question 9.: What specific steps have you taken since being 
appointed as the Chief Human Capital Officer at DHS to expand outreach 
to veterans and improve the DHS hiring process for veterans?
    Response: OCHCO has launched a three-prong Veterans Outreach 
strategy:
        (1) We have created a one-stop veterans web page for veterans 
        seeking jobs in DHS. This contains application information, job 
        openings, a ``converter'' to compare military jobs to civilian 
        ones, and an e-mail box for one-on-one assistance;
        (2) We established the first DHS Veterans Outreach Advisory 
        Council composed of various veterans service organizations to 
        advise us on our outreach programs and products; and
        (3) We are conducting enhanced training for Human Resources and 
        Equal Employment Opportunity specialists in all components on 
        the various Veterans preference hiring authorities.
    Finally, at our first DHS Career Fair, we had a booth specifically 
for veterans and spoke to more than 200 veterans.

    Question 10.: Are you considering implementing any new programs or 
initiatives in Fiscal Year 2008 to enhance outreach to veterans?
    Response: Yes, based on recommendations from the Advisory Council, 
OCHCO is developing a recruitment video and brochure specifically 
targeting veterans. OCHCO also plan to increase its presence at the 
Transition Assistance Program centers, as well as numerous job fairs 
held for veterans.

    Question 11.: Are there any specific programs that reach out to 
veterans who have recently returned from the wars in Iraq and 
Afghanistan?
    Response: Non-disabled Iraq and Afghanistan war veterans are 
entitled to a ten-point hiring preference. DHS has an ambitious 
training program for all Human Resources personnel on veterans' 
preference issues, programs, and the Uniformed Services Employment and 
Reemployment Rights Act, to ensure those preferences and programs are 
recognized and adhered to by our Human Resources staff. For disabled 
veterans, including those who have recently returned from the wars in 
Iraq and Afghanistan, the Department makes great use of DoD's Operation 
War Fighter Program, which provides temporary assignments to wounded 
service members receiving rehabilitation services at Walter Reed.
    DHS is also involved in the Army's Wounded Warrior Program (WWP) 
which places disabled service members who served in the Iraq and 
Afghanistan theaters of war into temporary assignments. DHS 
Headquarters established accounts with the WWP and the Marine for Life 
program to provide additional methods to view job opportunities within 
Headquarters. Other less formal programs are also utilized; for 
example, to become more familiar with the U.S. Citizenship and 
Immigration Services (USCIS), disabled veterans from Walter Reed spent 
one day job-shadowing a USCIS manager.
    DHS is an active partner in the Department of Veteran Affairs' 
Vocational Rehabilitation and Employment, though this is not specific 
to those returning from war.

    Question 12.: How do you measure the success of DHS' programs to 
recruit, hire, and train veterans?
    Response: I think you can measure the success in a number of ways. 
First, by the number of veterans DHS hires: as mentioned, in each of 
the past two years, the Department has doubled the number of veterans 
hired over the previous year. In addition, a good measure will be the 
numbers of veterans hired that satisfactorily complete their 
probationary period at DHS and who progress in their careers by 
benefiting from DHS career paths and learning and development 
strategies. I am also proud to say that nearly 30 percent of our 
managers and supervisors are veterans.

    Question 13.: What additional resources would your office require 
to enhance DHS' outreach and recruitment of veterans? How would you 
utilize these additional resources?
    Response: Resource needs for this office are reflected in the 
upcoming FY2009 Budget. The resources will be used to establish a 
Veterans Speakers Bureau and produce recruitment materials and video 
specifically for veterans.

    Question 14.: In your prepared statement (p. 2) you mention that 
the Department has recently launched a ``one stop'' informational 
website for veterans seeking employment with DHS.
    Did you conduct any type of user testing with veterans for your new 
veterans web page?
    Have you received any positive feedback from veterans or veterans 
service organizations (VSOs) regarding use of the website?
    Response: Yes, OCHCO asked ten veterans who have been employed by 
DHS for less than a year to test the web page, and the feedback has 
been very beneficial. The web page has an e-mail box where potential 
job applicants can comment on the web page and its various uses.
    Yes, OCHCO demonstrated the web page at the first meeting of the 
Veterans Outreach Advisory Council on November 6, 2007. There was very 
favorable reaction from the entire group, and many comments were made 
commending the entire concept.

    Question 15.: The Department recently convened its newly 
established DHS Veterans Advisory Council, which held its inaugural 
meeting on November 6, 2007.
    Could you please tell us how the first meeting went and what were 
some of the topics that were covered?
    Have you received any feedback from the veterans service 
organizations that participated in the advisory council meeting?
    How do you plan to implement the recommendations that resulted from 
the Advisory Council meeting?
    Will you be inviting additional member organizations to your 
Veterans Outreach Advisory Council? If so, which ones?
    How often do you expect the Advisory Council to meet?
    Response: The meeting was a very positive beginning. It was evident 
that the participants were engaged and vested in our common cause to 
attract and hire more veterans. They were showed the Department's new 
recruitment video, veterans web page, and recruitment brochure. 
Reaction was overwhelmingly favorable, and they made recommendations 
which we are pursuing such as a veteran-specific recruitment video and 
brochure.
    Yes, all the participants expressed interest in establishing the 
Council as a permanent advisory body. Many commended DHS on 
establishing this forum.
    OCHCO is moving forward with two recruitment products recommended 
by the Council: a veteran-specific recruitment video and brochure. I 
have designated a member of my staff to serve as a coordinator for 
Council activities and follow-up.
    Based on advice from the Council, OCHCO is inviting the VA's Office 
of Vocational Rehabilitation, and the Office of Personnel Management to 
join the Veterans Outreach Advisory Council. OCHCO would welcome any 
other suggestions from the Committee.
    I prefer to allow the Council itself to determine the frequency of 
Council meetings. I would hope they could meet and advise us on a 
quarterly basis.

    Question 16.: In your prepared statement (p. 3) you mention that 
the Department is conducting ``enhanced training for the Department's 
HR specialists in the area of Veterans employment programs, authorities 
and rights.''
    Could you please walk us through the hiring process--from posting a 
position to selecting an applicant--and how the veterans preference is 
considered during this process?
    Could you please elaborate on that, and explain how DHS ensures 
that its human resources specialists are knowledgeable about the 
various veterans preference statutory authorities?
    Response: The attached DHS Hiring Model can be used to walk through 
hiring process:
    In Step 13, veterans who meet the criteria for preference and who 
are found eligible (achieve a score of 70 or higher either by a written 
examination or an evaluation of their experience and education) have 
five or ten points added to their numerical ratings depending on the 
nature of their preference.
    When the list of all that are qualified for scientific and 
professional positions in grade GS-9 or higher is issued, the names of 
all eligibles are listed in order of rating, augmented by veteran 
preference, if any. For all other positions, the names of ten-point 
preference eligibles who have a compensable, service-connected 
disability of ten percent or more are placed ahead of the names of all 
other eligibles on a given list of qualified applicants. The names of 
other 10-point preference eligibles, five-point preference eligibles, 
and non-veterans are listed in order of their numerical ratings.
    From a Department-wide perspective, DHS is conducting classes on 
Veterans Preference hiring authorities. Each component will send two 
Human Resources (HR) specialists and one Equal Employment Opportunity 
(EEO) specialist to the class. The graduates of this class will form a 
new network of experts on veterans hiring which we can leverage across 
the Department. In addition, some components have independently taken 
similar steps. For example:
        <bullet> The U.S. Coast Guard prepared and conducted a training 
        module for all 35 Human Resources Specialists on Veterans' 
        Preference in Federal Hiring and the use of special appointing 
        authorities for disabled veterans. To assist managers and 
        supervisors, they have posted a recruitment guide on their 
        intranet that includes information on the process for hiring 
        disabled veterans.
        <bullet> The U.S. Secret Service sponsored a hiring 
        flexibilities seminar to provide hiring officials with 
        information regarding recruitment and retention, appointing 
        authorities for disabled veterans, direct hire, persons with 
        disabilities, excepted service employment and category rating.

    Training for HR Specialists scheduled in early 2008 includes:
Four Hour Veterans' Preference Overview (January/February 2008)
    Training using an agency partnership format with veteran employment 
experts from the Office of Personnel Management (OPM), Department of 
Labor (DOL), Department of Defense (DoD), and the Department of 
Veterans Affairs (VA) for approximately 35 DHS HR/EEO employees.
    Training format as follows:
        <bullet> Veterans' Preference--Interactive discussion on unique 
        processes, polices, and decisions and their impact on Hiring 
        Authorities and Adjudications (1 hour). Lead by OPM;
        <bullet> Uniformed Services Employment and Reemployment Rights 
        Act of 1994 (USERRA) (1 hour). Lead by DOL;
        <bullet> Disabled Veterans Initiatives
                <bullet> Operation Warfighter Program--The Department 
                of Defense Military Severely Injured Center sponsors 
                this initiative which is a temporary assignment or 
                internship program for Service members who are 
                undergoing therapy at military treatment facilities in 
                the United States(1/2 hour). Lead by DoD; and
                <bullet> VA's Vocational Rehabilitation & Employment--
                Coming Home to Work Program--The Coming Home to Work 
                (CHTW) Program is an integral part of VA's early 
                intervention and outreach efforts to Operation Enduring 
                Freedom and Operation Iraqi Freedom service members and 
                veterans. CHTW has provided opportunities for eligible 
                service members and veterans to obtain work experience, 
                develop skills needed to transition to civilian 
                employment, determine the suitability of a potential 
                career, and become suitably employed in the civilian 
                labor market. (1/2 hour). Led by VA.
                <bullet> Questions and Answers (15 minutes) following 
                each session.

    Uniformed Services Employment and Reemployment Rights Act of 1994 
(USERRA)
    Two USERRA training sessions:
        8 Hours--Basic Level Overview for HR Specialists
    The overview training will provide a review of the Veterans' 
Reemployment Rights (VRR) Statute that will help to ensure that 
returning service-members are reemployed in the job that they would 
have attained had they not been absent for military service (the long-
standing ``escalator'' principle), with the same seniority, status and 
pay, as well as other rights and benefits determined by seniority.
        <bullet> 3 Days (six half day sessions)--Advance Class for 
        Veterans' Preference Experts
    This class will provide an in depth look at Veterans' Reemployment 
Rights (VRR) Statute and will cover reasonable efforts (such as 
training or retraining) that must be made to enable returning service 
members to refresh or upgrade their skills to help them qualify for 
reemployment.

    Question 17.: In your prepared statement (p. 2) you refer to 
veterans and state that their ``military backgrounds and training are 
well suited to DHS jobs--and most importantly--to accomplishing our 
critical mission.''
    Could you please provide us with some specific examples of how 
veterans are able to apply their military background and training in 
their employment at DHS?
    What specific components of DHS or positions within DHS would best 
enable veterans to utilize their special skills?
    Response: Many veterans occupy military positions that require 
skills and experience that are easily transferable to DHS civilian 
careers. For instance, military competencies gained as the result of 
working in law enforcement, security, and intelligence provide the 
necessary background experience for many mission critical jobs 
Department-wide. In addition, military training provides veterans with 
the ability to, inherently, understand the national security mission 
and the subsequent risks. All components, including Headquarters, can 
utilize and benefit from the rich training and experience a veteran 
brings. Border Patrol Agents and CBP Officers, Secret Service 
personnel, Federal Air Marshals in TSA, Intelligence Analysts in 
Headquarters, Enforcement Officers and Investigators in ICE and the 
U.S. Coast Guard are just some of the areas in which veterans are 
currently working. In addition, two Headquarters Operation Warfighter 
alumnae are now permanent employees with the Office of Security, 
providing security to the DHS Headquarters facility.

                                 <all>

</pre></body></html>
